               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Employee and Labor Relations
             Manual Revisions

                       Audit Report




                                              August 20, 2013

Report Number HR-AR-13-005
                                                                        August 20, 2013

                                             Employee and Labor Relations Manual
                                                                       Revisions

                                                        Report Number HR-AR-13-005



BACKGROUND:
The Employee and Labor Relations             current, accurate, and complete. Finally,
Manual (ELM) contains policies and           the Postal Service has not clearly
regulations governing U.S. Postal            identified functional organizations
Service employment, including                responsible for specific ELM content to
organizational structure, pay                ensure they authorize revisions as
administration, employee benefits,           appropriate because the overall
employee relations, training and             guidance governing ELM revisions does
development, safety, health and              not require that level of detail.
environment, and labor relations.
Management periodically revises              Policy guidance must contain
sections of the ELM to reflect changes       information that is current, accurate,
to Postal Service policies or regulations.   complete, and in agreement with
The ELM is frequently cited by both          Postal Service policy. Properly updating
internal and external stakeholders in        the ELM minimizes the possibility of
matters concerning Postal Service            expensive and embarrassing
employment; therefore, it is vital that it   consequences to the Postal Service.
contains information that is current and
in agreement with Postal Service policy.     WHAT THE OIG RECOMMENDED:
                                             We recommended management
Our objective was to assess the process      implement procedures to update the
Postal Service officials use to update       ELM on a regular basis and clearly
the ELM.                                     identify functional organizations
                                             responsible for specific content and
WHAT THE OIG FOUND:                          communicate that information to
The process for updating the ELM             appropriate stakeholders. Management
needs improvement. Specifically, overall     updated the overall guidance for
guidance governing ELM revisions had         revising the ELM to incorporate
not been updated since 1996 and              suggestions made by the OIG and other
various sections contained obsolete          stakeholders effective June 26, 2013.
information. Also, management had not        As a result, we did not make any
comprehensively reviewed and updated         recommendations regarding ELM policy
the ELM since its publication in 1978 to     guidance.
ensure that all changes have been
properly included and the document is        Link to review the entire report
August 20, 2013

MEMORANDUM FOR:           ROSEMARIE FERNANDEZ
                          ACTING VICE PRESIDENT, EMPLOYEE RESOURCE
                          MANAGEMENT

                          JUDITH A. DE TOROK
                          ACTING VICE PRESIDENT, CORPORATE
                          COMMUNICATIONS


                                     E-Signed by Michael A. Magalski
                                  VERIFY authenticity with eSign Desktop




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Audit Report – Employee and Labor Relations Manual
                          Revisions (Report Number HR-AR-13-005)

This report presents the results of our audit of Employee and Labor Relations Manual
Revisions (Project Number 13YG018HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Jeffrey C. Williamson
    Douglas A. Tulino
    Corporate Audit and Response Management
Employee and Labor Relations Manual Revisions                                                                      HR-AR-13-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Policy Guidance .............................................................................................................. 1

Comprehensive Review and Update ............................................................................... 2

Employee and Labor Relations Manual Section and Chapter Content Owners .............. 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Management's Comments .......................................................................... 8
Employee and Labor Relations Manual Revisions                                                  HR-AR-13-005



Introduction

This report presents the results of our audit of Employee and Labor Relations Manual
(ELM) Revisions (Project Number 13YG018HR000). Our objective was to assess the
process U.S. Postal Service officials use to update the ELM. This self-initiated audit
addresses operational risk. See Appendix A for additional information about this audit.

The ELM contains policies and regulations governing Postal Service employment,
including organizational structure, job evaluation, placement, pay administration,
employee benefits, employee relations, training and development, safety, health and
environment, and labor relations. Management revises sections of the ELM, as needed,
to reflect changes in policies or regulations.

Conclusion

The process for updating the ELM needs improvement. Specifically, overall guidance
governing ELM revisions had not been updated since 1996 and certain sections
contained obsolete information. Also, management had not comprehensively reviewed
and updated the ELM since its initial publication in 1978. Finally, management had not
clearly identified functional organizations responsible for ELM section and chapter
contents (content owners) to ensure they authorize revisions when appropriate.

Policy Guidance

The Postal Service has not updated guidance 1 used to publish electronic and paper
documents containing corporate policies, procedures, and forms, including the ELM,
since 1996. As a result, it contains outdated information. For example:

   The guidance stated that electronic and paper documents containing corporate
    policies and procedures must be published through Corporate Publishing and
    Information Management (CPIM), Information Systems, and maintained as part of
    the corporate directives repository for tracking and easy access. According to the
    manager, Brand and Policy, CPIM was transferred from Information Systems to
    Corporate Communications and renamed Brand and Policy in fiscal year (FY) 2000.

   The guidance stated that vice presidents who issue policies and procedures in
    memorandums should ensure those memorandums are managed with other
    corporate policy documents by using the Local Area Network (LAN) memo template
    designated ‘Policy Memo’ and provide a copy to CPIM (now Brand and Policy). This
    information is obsolete and no longer applicable because the LAN ‘Policy Memo’
    template no longer exists.


1
 Management Instruction (MI) AS 310-96-3, Management of Policy and Procedure Information – Paper and Online,
May 1996.
                                                    1
Employee and Labor Relations Manual Revisions                                                         HR-AR-13-005



   Although the online forms used to update the ELM were revised, the forms in the
    management instruction have not been similarly revised.

The manager, Brand and Policy, stated that the required revisions were minor 2 but
could not explain why they have not been made. The manager stated that, based in part
on inquiries made by the U.S. Postal Service Office of Inspector General (OIG) and
other internal Postal Service personnel, management revised the guidance effective
June 26, 2013. 3 Because management updated the guidance to incorporate
suggestions made by the OIG and other stakeholders, we are not making any
recommendations regarding policy guidance.

Comprehensive Review and Update

Management has not comprehensively reviewed and updated the ELM since its initial
publication in 1978 because there is no requirement to do so. Officials generally update
the ELM to incorporate policy 4 changes when they are aware of them but, since there
are no procedures for regularly reviewing and updating the ELM, critical changes may
be significantly delayed or overlooked. For example:

   The Postal Service implemented a new job category, Postal Support Employee, in
    FY 2011, but have not implemented planned changes to the ELM.

   The ELM does not include the eCareer application implemented in 2008 and noted
    in Postal Service Handbook EL-312. 5

Also, officials do not immediately update the ELM for non-regulatory or editorial
changes because these changes occur frequently and the clearance process can take
up to 60 days. 6 As a result, information becomes obsolete. For example, the
Organizational Design and Management office was changed to Organizational
Effectiveness in FY 2011, but the ELM does not currently reflect this change. We also
found similar examples of obsolete information, including:

   Section 436 references MI EL-430-2012-2, which was superseded by
    MI EL-430-2012-4 in November 2012.

   Sections 511.21 and 516.23 reference Handbook F-22, 7 which was obsolete as of
    May 10, 2002.

   Section 512.71 references Postal Service (PS) Form 2246, Terminal Leave
    Worksheet, which was obsolete as of October 20, 1989.

2
  These include non-regulatory and editorial changes.
3
  MI AS-310-2013-6, Management of Policy and Procedure Information, June 26, 2013.
4
  These include changes to union contracts and regulatory provisions.
5
  Handbook EL-312, Employment and Placement, March 2013.
6
  The Postal Service has a contractual obligation to notify its unions of proposed ELM changes related to bargaining
unit employees. This allows time for the unions to respond to the proposed changes.
7
  Handbook F-22, Time and Attendance.

                                                          2
Employee and Labor Relations Manual Revisions                                                       HR-AR-13-005




   Sections 541.3, 547.58, 547.73, and 547.74 reference PS Form 2557, Employee’s
    Third-Party Recovery Statement, which was obsolete as of February 2012.

   Section 596.522 states that the maximum length of time for a Thrift Savings Plan
    (TSP) general purpose loan is 4 years; however, the general information and
    instructions for TSP Form TSP-20, Loan Application, April 2012, state that the
    minimum and maximum times to repay general purpose loans are 1 and 5 years,
    respectively.

   Section 868.131 refers to Handbook M-19, 8 which became obsolete in FY 1991 and
    superseded by Handbook PO-702. 9

In addition, in our survey, four of 10 area Human Resources managers and analysts
stated that the ELM is not up to date and relevant. 10 One respondent suggested
conducting regularly scheduled reviews and updates of the ELM.

During the course of our audit, personnel began reviewing and comprehensively
updating their respective sections and chapters of the ELM. A thorough periodic ELM
review ensures that all changes have been properly included and the document is
current, accurate, and complete.

Employee and Labor Relations Manual Section and Chapter Content Owners

Management has not clearly identified ELM content owners. When officials revise the
ELM, they forward authorized revisions to the Brand and Policy office 11 for publication.
Personnel in that office verify that the revisions were authorized by a Postal Career
Executive Service manager, as required. However, since management has not
identified ELM content owners, there is no way to verify, when appropriate, that the
relevant content owner authorized the revisions.

The manager of Brand and Policy stated that the vice president, Employee Resource
Management, has overall responsibility for the ELM. In addition, Postal Service policy
states that when there are legal or labor relations consequences to be managed,
representatives of accountable organizations must authorize revisions via signature.
However, the policy does not specify individual content owners responsible for
authorizing revisions. Instead, it gives each vice president delegation of authority for
that responsibility.

Identifying content owners provides an added control that relevant content owners
authorize revisions. It also provides added assurance that the impact of a change in one

8
  Handbook M-19, Accident Investigating Tort Claims.
9
  Handbook PO-702, Tort Claims Administration, May 2007.
10
   We invited 25 area Human Resources managers and analysts to participate in a survey regarding their use of the
ELM and whether the information in the ELM is current. We received 10 responses.
11
   The Brand and Policy office is responsible for publishing new and revised documents and removing obsolete
documents, including those related to the ELM.

                                                        3
Employee and Labor Relations Manual Revisions                                  HR-AR-13-005



chapter is carried through to all other affected chapters. Finally, it reduces the risk of
inaccurate information or employee actions that could potentially result in negative legal,
contractual or other business consequences to the Postal Service. Since the ELM
contains policies and regulations governing Postal Service employment, it is frequently
cited by both internal and external stakeholders. The Postal Service’s own guidance
states that it is vital that the ELM contain information that is correct,
up-to-date, and in agreement with official Postal Service policy to minimize the
possibility of expensive and embarrassing consequences to the Postal Service.

Recommendations

We recommend the acting vice president, Employee Resource Management, in
coordination with the acting vice president, Corporate Communications:

1. Implement procedures to update the Employee and Labor Relations Manual on a
   regular basis to ensure that it is current, accurate, and complete.

We recommend the acting vice president, Employee Resource Management:

2. Identify functional organizations responsible for Employee and Labor Relations
   Manual section and chapter contents and communicate that information to
   appropriate stakeholders.

Management’s Comments

Management agreed with the findings and recommendations.

Regarding recommendation 1, management stated that Employee Resource
Management (ERM) will develop an ELM revision process to ensure the ELM is current,
accurate, and complete. Management also stated that ELM reviews will be conducted
as organizational changes or other initiatives occur that warrant an ELM update.

Regarding recommendation 2, management stated ERM will also identify functional
organizations responsible for ELM section and chapter contents and communicate the
identified organization content owners to the appropriate stakeholders.

Management expects to implement corrective actions for recommendations 1 and 2 by
December 31, 2013. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations and the corrective actions should resolve issues identified in the
report.




                                                4
Employee and Labor Relations Manual Revisions                              HR-AR-13-005



The OIG considers both recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                5
Employee and Labor Relations Manual Revisions                                  HR-AR-13-005




                            Appendix A: Additional Information

Background

The ELM contains policies and regulations governing Postal Service employment,
including organizational structure, job evaluation, placement, pay administration,
employee benefits, employee relations, training and development, safety, health and
environment, and labor relations. Management periodically revises sections of the ELM
as needed to reflect changes in policies or regulations.

Objective, Scope, and Methodology

Our objective was to assess the process Postal Service officials use to update the ELM.
Our scope included Postal Service policies and procedures for revising the ELM;
contents in the ELM, Issue 33, dated December 2012; and revisions made to the ELM
from January 2008 through December 2012.

To accomplish our objective, we:

   Identified Postal Service functional areas responsible for ELM content.

   Reviewed Postal Service guidance to understand the process for revising the ELM.

   For Chapters 1 through 5 and 8 and 9 of the ELM, Issue 33, dated December 2012:

    o Identified and verified that revisions approved within the last 5 years (FYs 2008
      through 2012) and year-to-date were published in the ELM.

    o Reviewed documentation to ensure the revision process was followed and
      revisions were properly approved.

    o Reviewed for obsolete information, references, and terminology.

   Interviewed three Postal Service officials responsible for specific chapters in the
    ELM to understand their process for revising it and determine whether they were
    aware of any necessary revisions.

   Invited 25 area Human Resources managers and analysts to participate in a survey
    regarding their use of the ELM and whether the information in the ELM is current
    and analyzed the 10 responses received.

   Interviewed three Human Resources managers regarding their use of the ELM and
    whether the information in the ELM is current.

We conducted this performance audit from February through August 2013 in
accordance with generally accepted government auditing standards and included such

                                                6
Employee and Labor Relations Manual Revisions                                  HR-AR-13-005



tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We did not rely on computer-
generated data to support the audit findings. We discussed our observations and
conclusions with management on July 24, 2013, and included their comments where
appropriate.

Prior Audit Coverage

The OIG has not issued any prior audits or reviews directly related to our objective in
the past 3 years.




                                                7
Employee and Labor Relations Manual Revisions                 HR-AR-13-005



                          Appendix B: Management's Comments




                                                8
Employee and Labor Relations Manual Revisions       HR-AR-13-005




                                                9
